CERTIFICATE OF SERVICE
I hereby certify that on this 4th day of October, 2021, a true and correct copy
of this Application to the Honorable Brett Kavanaugh for an Extension of Time to
File a Petition for Writ of Certiorari to the Eighth Circuit was served via first class
U.S. Mail and email on the following counsel of record:
Gabrielle Denise Gibson
Sara Lynn Monaghan
ARKANSAS MUNICIPAL LEAGUE
301 W. Second Street
P.O. Box 38
North Little Rock, AR 72115
ggibson@arml.org;
smonaghan@arml.org
Robert McNamara
INSTITUTE FOR JUSTICE
901 North Glebe Road
Suite 900
Arlington, VA 22203
Tel: (703) 682-9320
Counsel for Petitioner

